1a
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
-----------------------------------------------------------------------

August Term, 2018
(Argued: February 28, 2019

Decided: July 16, 2019)

Docket No. 18-807
-----------------------------------------------------------------------

VUGO, INC.,
Plaintiff-Appellee,
—v.—
CITY OF NEW YORK,
Defendant-Appellant.
-----------------------------------------------------------------------

Before:
KATZMANN, Chief Judge, LIVINGSTON and
DRONEY, Circuit Judges.
-----------------------------------------------------------------------

Defendant-Appellant the City of New York (the
“City”) appeals from a February 22, 2018 opinion and
order entered in the United States District Court for the
Southern District of New York (Abrams, J.) denying
the City’s motion for summary judgment and granting
Plaintiff-Appellee Vugo, Inc.’s motion for summary
judgment. The district court concluded that the City’s
rules banning advertisements in for-hire passenger

2a
vehicles, such as Ubers and Lyfts, violate the First
Amendment, primarily because the City permits certain advertising in taxicabs. On appeal, the City argues that its ban survives First Amendment scrutiny,
notwithstanding the limited taxicab exception, because it directly advances the government’s interest in
improving the passenger experience and is no more extensive than necessary to advance that interest. We
agree. Accordingly, we REVERSE.
-----------------------------------------------------------------------

RONALD J. RICCIO (Steven J. Shanker, Eliott Berman,
on the brief ), McElroy, Deutsch, Mulvaney &
Carpenter, LLP, New York, NY, for PlaintiffAppellee.
KATHY CHANG PARK (Richard Dearing, Claude S.
Platton, on the brief ), for Zachary W. Carter,
Corporation Counsel of the City of New York,
New York, NY, for Defendant-Appellant.
-----------------------------------------------------------------------

KATZMANN, Chief Judge:
This appeal concerns a First Amendment challenge to nearly twenty-year-old New York City rules
that ban advertisements in for-hire vehicles (“FHVs”)
absent authorization from the Taxi and Limousine
Commission (the “TLC” or the “City”). See 35 R.C.N.Y.
§§ 59A-29(e)(1), 59B-29(e)(1). A similar rule has applied
to yellow and green taxicabs (collectively, “taxicabs,”
“taxis,” or “cabs”) for over two decades. See 35 R.C.N.Y.
§ 58-32(f ). The TLC originally enacted these bans because, as the record reflects, passengers find in-ride

3a
advertisements—particularly, as relevant here, video
advertisements—extremely annoying. However, in 2005,
the TLC permitted a limited category of advertisements in taxis: those displayed on the screens of new
equipment that the TLC required taxis to install (“Taxi
TV”). This new equipment allows taxi riders, inter alia,
to track the progress of their metered fare and pay by
credit card. The TLC authorized advertising on Taxi
TV to offset the cost to the taxi owners of installing the
newly mandated equipment.
Plaintiff-Appellee Vugo, Inc. (“Vugo”) has challenged the rules banning advertisements in FHVs because it wants to sell an advertising software platform
it developed for certain FHVs, including Ubers and
Lyfts. Vugo primarily argues that the ban is impermissibly underinclusive under the First Amendment because the City’s interest in enacting the ban bears no
relationship to the City’s justification for exempting
Taxi TV advertising.
The parties agree that the prohibition on advertising in FHVs is a content-based restriction on commercial speech and, as such, is subject to intermediate
scrutiny. See Central Hudson Gas & Elec. Corp. v. Public Servs. Comm’n, 447 U.S. 557 (1980). Under Central
Hudson, courts ask whether (1) the expression is protected by the First Amendment; (2) the asserted government interest is substantial; (3) the regulation
directly advances the government interest asserted;
and (4) the regulation is no more extensive than necessary to serve that interest. Id. at 566. The district
court concluded that the ban fails the third prong of

4a
this test because the City’s justification for the Taxi TV
exception (compensating taxi owners for the cost of
new equipment) “bears no relationship whatsoever” to
the City’s asserted interest (protecting passengers
from annoying advertisements). Special App. at 16.
Considering the fourth prong in tandem with the third,
the district court also concluded that the ban was more
extensive than necessary to advance the City’s interest.
We respectfully disagree. First, we think there is a
sufficient nexus here between the ban and its exception because both advance the City’s interest in improving the overall passenger experience. Second, the
ban would be constitutional even if there were not such
a relationship. The absence of a relationship between
a government’s interest in a ban and its basis for any
exceptions may render a ban unconstitutionally underinclusive. Most notably, it may demonstrate that the
ban was motivated by bias or remains incapable of
achieving its stated aims. Here, however, on the uncontroverted record, the exception neither reflects discriminatory intent nor renders the ban ineffective at
improving the in-ride experience for millions of New
York City residents and visitors. The Taxi TV exception
reflects the City’s reasonable decision that the costs
of permitting advertisements in taxicabs were outweighed by the benefits of compensating taxicab owners for the expense of installing new equipment that
facilitated credit card payment and improved ride data
collection. Vugo identifies no grounds for us to upset
this policy judgment. See Metromedia, Inc. v. City of
San Diego, 453 U.S. 490, 512 (1981) (plurality opinion).

5a
Finally, we conclude that the City’s ban is not substantially more restrictive than necessary to achieve the
City’s aims under the final prong of Central Hudson.
Accordingly, we REVERSE the judgment of the
district court and direct the entry of judgment in favor
of the City.
BACKGROUND
I.

Factual History

The material facts are undisputed. “[T]ransporting
passengers for hire by motor vehicle in the city of New
York is affected with a public interest, is a vital and
integral part of the transportation system of the city,
and must therefore be supervised, regulated and controlled by the city.” N.Y.C. Admin. Code § 19-501 (legislative findings). The New York City Council has tasked
the TLC with regulating this critical component of the
City’s transportation system, which includes both taxis
and FHVs. N.Y.C. Charter §§ 2300, 2303(a).
The term “taxicab” refers to yellow cabs and green
cabs, which are the only vehicles the TLC allows to pick
up passengers by street hail in New York City. See
N.Y.C. Admin. Code § 19-504(1).1 FHVs, by contrast, are
vehicles “other than a taxicab” that “carr[y] passengers
for hire in the city.” N.Y.C. Admin. Code § 19-502(g).
1

Green cabs are formally classified as for-hire vehicles, but
this opinion, following the lead of the district court and the parties, defines the term “taxicab” as including green cabs because
green cabs are allowed to display advertisements on Taxi TV.

6a
FHV rides are prearranged through businesses licensed by the TLC, such as limousine companies and,
more common today, companies like Uber and Lyft. See
N.Y.C. Admin. Code § 19-516(a) (“For-hire vehicles . . .
may accept passengers only on the basis of telephone
contract or prearrangement.”). FHVs comprise a growing share of the passenger vehicle market. As of August 2016, the TLC regulated 94,000 vehicles. More
than seventy-five percent of these were FHVs. Around
that same time, riders took approximately 370,000
daily trips in yellow taxis and 213,000 daily trips in
Uber and Lyft vehicles.
One of the TLC’s statutory mandates is to “promot[e] and protect[ ] . . . public comfort and convenience.” N.Y.C. Charter § 2300. Consistent with this
mandate, the TLC sets comprehensive standards for
driver licensing, vehicle equipment, and vehicle markings in both taxis and FHVs. For example, the TLC can
deny an applicant a license if the applicant has assaulted a passenger or unlawfully denied a passenger
service in the past two years, 35 R.C.N.Y. § 58-08(d);
the TLC mandates that taxis be equipped with a partition, 35 R.C.NY. § 58-35(a); and the TLC requires taxi
owners to “apply to the exterior of the Taxicab markings approved by the Commission,” such as an emblem
identifying the owner of the vehicle, while prohibiting
the application of other emblems and markings on the
exterior of taxicabs. See 35 R.C.N.Y. § 58-32(a). Similar
regulations apply to FHVs. See 58 R.C.N.Y. § 59B09(b)(5); 58 R.C.N.Y. § 59A-32(a); 58 R.C.N.Y. § 59A-29.

7a
Also in furtherance of this mandate to promote
passenger comfort, the TLC—for more than two decades—has prohibited any advertising inside taxicabs
except as specifically authorized by the Commission.
See App. at 288, 303-04 (original prohibition, March 1,
1996) (“An owner shall not display inside a taxicab any
advertising or other notice not specifically authorized
by these [taxicab owner] rules or the Commission’s
Marking Specifications for Taxicabs unless approved
by the Commission.”); 35 R.C.N.Y. § 58-32(f ) (current
prohibition) (“An Owner must not display inside a
Taxicab any advertising or other notice not specifically
authorized by these rules or the Commission’s Marking Specifications for Taxicabs unless approved by the
Commission.”).
The TLC codified similar rules for FHVs in 1999,
which are at issue in this case. 35 R.C.N.Y. §§ 59A29(e)(1), 59B-29(e)(1).2 Section 59A-29(e) provides that
an “[o]wner must not display any advertising on the
exterior or the interior of a For-Hire Vehicle unless the
advertising has been authorized by the Commission.”
Section 59B-29(e)(1), which applies to owners of forhire base stations—central facilities that manage, organize, and/or dispatch FHVs—contains essentially
the same restriction. See 35 R.C.N.Y. § 59B-29(e)(1) (“A
Vehicle must not display advertising on the outside or
the inside unless the Commission has authorized the
2

Sections 59A-29(e) and 59B-29(e) have been renumbered
since their original passage. There have also been minor word revisions. None of those changes substantively altered the rule
adopted by the TLC on August 5, 1999.

8a
advertising and has given the Vehicle Owner a permit
specifying that the advertising complies with the Administrative Code.”). Violation of either section subjects
the violator to a $50 fine. See 35 R.C.N.Y. §§ 59A-29(3),
59B-29(e)(1). The City’s position throughout this litigation has been that “[t]he Challenged Rules govern advertising on posters, stickers, or any other format in
which one could promote a product or service.” City’s
Reply Mem. of Law in Support of Cross-Motion for
Summary Judgment at 10, ECF No. 53, Vugo, Inc. v.
City of New York, No. 1:15-cv-8253 (S.D.N.Y. Sept. 30,
2016).
The City’s prohibition on in-ride advertising has
only one exception: advertisements on Taxi TV. TLC
authorized this limited form of interior advertising in
taxis in May 2005 to allow taxi owners to offset the cost
of a new technology system that TLC had recently required vehicle owners to purchase and install. See App.
at 95 (deposition testimony of Ryan Wanttaja, Deputy
General Counsel for the TLC) (the TLC permits interior advertising in yellow and green taxis “principally
because of the—or solely because they offset the cost of
these mandatory pieces of equipment that provide the
additional functionality that the TLC requires”).
This new hardware and software system, referred
to as the Technology Passenger Enhancements Program
(“TPEP”) for yellow taxis and the Livery Passenger
Enhancements Program (“LPEP”) for green taxis, advances the TLC’s mandate to innovate and experiment
with new designs and modes of service. N.Y.C. Charter
§ 2303(b)(9). TPEP and LPEP benefit riders, drivers,

9a
and the TLC. For example, the screen in these systems,
known as the “passenger information monitor,” shows
passengers their fare as it accumulates, allows passengers to track their route, and accepts credit card payments. In a recent TLC survey, almost sixty percent of
passengers chose the ability to pay by credit or debit
card as the feature they liked most about taxis. The
systems also assist with lost-property inquiries and
enable the TLC to inform drivers about areas of high
demand and to convey emergency notifications via text
message. In addition, the systems produce detailed
records—previously maintained by hand—of each taxi
trip, including fares and pick-up and drop-off locations.
See 35 R.C.N.Y. § 58-22. These detailed records allow
for comprehensive statistical analysis that informs
TLC policy and was not feasible under the prior, paper
reporting system.
The TLC required vehicle owners to pay for the
TPEP and LPEP systems. Because the TLC did not
expect that the “significant” cost of installing these systems would be offset by any increase in business, App.
at 297, the TLC authorized advertising on the passenger information monitors as a means of reducing the
expense for vehicle owners.3 See 35 R.C.N.Y. § 58-32(f )
(exempting “[a]dvertising on the Technology System,”
subject to certain restrictions, from the general ban on
3

Vehicle owners do not directly receive the advertising revenue.
Instead, according to the TLC, TPEP and LPEP providers sell the
systems at a discount—the TLC estimates for forty to sixty percent less—when the providers can profit from advertising displayed on the screens.

10a
interior advertising); App. at 297 (“TLC authorized advertising in [taxis] simply as a means by which owners
could offset the new cost.”). The system allows limited
advertising, known as “Taxi TV.” 35 R.C.N.Y. § 58-32(f )
(exempting “[a]dvertising on the Technology System,”
subject to certain restrictions, from the general ban on
interior advertising).
In response to passenger dissatisfaction with Taxi
TV, the TLC has sought to again entirely eliminate
advertising from taxicabs. Approximately one-third of
TLC survey respondents named Taxi TV as the one
thing they disliked most about taxis. The commissioner of the TLC expressed the need to be “responsive”
to passengers who found Taxi TV to be “somewhat of
an invasion.” App. at 453. The TLC recently completed
a pilot program to test new technologies that could
maintain the functionality of TPEP and LPEP without
Taxi TV. The executive director of the taxi drivers’ union reported that the drivers responded to the proposed
change with “utter elation.” App. at 458. After the pilot
program concluded in June 2018, TLC eliminated its
requirement that taxicab technology systems contain
monitors to display advertisements. See 35 R.C.N.Y.
§ 66-24(c). Instead, taxi owners must install any technology system that provides certain core functions,
including data collection, credit card payment, and
communication between drivers and TLC, but that
system need not have a monitor. See id.; 35 R.C.N.Y.
§ 58-40(a).
FHVs do not have technology akin to the TPEP
and LPEP systems. Indeed, such technology is not

11a
necessary in FHVs. FHV fares are usually set in advance (and not subject to the metered rates set for
street-hail vehicles), so passengers do not need realtime information about their fare. In addition, FHV
passengers less frequently need a device that accepts
in-car payment since payment is usually made in advance via a credit card on file. Finally, the TLC does
not need to communicate fare opportunities directly to
FHV drivers because FHV drivers can only accept passengers that their companies assign to them.
Vugo, a Minnesota-based technology company, has
developed a system for displaying video advertisements
to FHV passengers. Under Vugo’s business model, the
vehicle driver purchases an internet-connected tablet
and downloads the Vugo app. The driver mounts the
tablet on the back of the front seat’s headrest so that
it faces the passenger seats at eye level. When the
passenger’s trip begins, the tablet automatically plays
advertisements, mostly in video format. Passengers
cannot turn off or mute the advertisements (unlike
Taxi TV, which can be muted or turned off ). Passengers
can, however, use on-screen controls to reduce the volume to a “near-mute” level. App. at 180-81. Advertisers
pay Vugo, and Vugo splits this ad revenue with drivers.
When Vugo contacted the TLC about its plans to enter
the New York City market, the TLC confirmed that it
did not allow advertising in FHVs.

12a
II.

Procedural History

Vugo sued the City on October 20, 2015, alleging
that the TLC’s prohibition on interior advertising in
FHVs violates the First Amendment and requesting
that the court declare the rules unconstitutional and
enjoin their enforcement. Both parties moved for summary judgment. The district court (Abrams, J.) granted
summary judgment for Vugo.4 The court concluded
that, while the City had articulated a substantial interest in promoting passenger comfort, there was an
insufficient fit between the ban on in-ride advertising
and the City’s asserted interest because the advertisements on Taxi TV are no less annoying than advertisements in FHVs would be. Moreover, the district court
held, the City could have furthered its stated interest
by less restrictive means, such as requiring advertising
displays in FHVs to contain an on-off switch or mute
button.
DISCUSSION
I.

Standard of Review

We review a decision on cross-motions for summary judgment de novo, examining each motion “on its
own merits.” Chandok v. Klessig, 632 F.3d 803, 812 (2d
Cir. 2011). Summary judgment is proper only when
“the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). We must
4

The district court’s judgment has been stayed pending this
appeal.

13a
“constru[e] the evidence in the light most favorable to
the non-moving party and draw[ ] all inferences in its
favor.” Costello v. City of Burlington, 632 F.3d 41, 45 (2d
Cir. 2011); see also Morales v. Quintel Entm’t, Inc., 249
F.3d 115, 121 (2d Cir. 2001) (when considering crossmotions for summary judgment, “all reasonable inferences must be drawn against the party whose motion
is under consideration”). It is the government’s burden
to justify its rules as consistent with the First Amendment. See Sorrell v. IMS Health Inc., 564 U.S. 552, 57172 (2011); United States v. Caronia, 703 F.3d 149, 164
(2d Cir. 2012).
II.

The City’s Prohibition on In-Ride Advertising
Does Not Violate the First Amendment

The challenged rules affect only commercial advertising.5 “The First Amendment, as applied to the
States through the Fourteenth Amendment, protects
commercial speech from unwarranted governmental
regulation.” Central Hudson, 447 U.S. at 561. Both parties assert that Central Hudson’s intermediate scrutiny test applies because the rules regulate commercial
speech. We agree, and further conclude that the prohibition survives this test.
5

Although the advertising ban, on its face, also covers noncommercial advertising—and there is record evidence that the
ban has, in fact, been applied to non-commercial advertising—the
parties and the district court proceeded on the assumption that
the ban applies only to commercial speech. Since the parties agree
on appeal that the ban applies only to commercial advertising, we
assume that is the case for purposes of this decision.

14a
A. The Proper Level of Scrutiny
We must first briefly address what “intermediate
scrutiny” under Central Hudson requires after Sorrell.
Although Vugo expressly concedes that Central Hudson’s
intermediate scrutiny test applies, Vugo also contends
that content-based restrictions on truthful commercial
advertising are “presumptively invalid” after Sorrell,
Appellee Br. at 18, implying that something more akin
to strict scrutiny applies.6 We hold that the Central
Hudson test still applies to commercial speech restrictions.
The Supreme Court has held that “commercial speech
enjoys a limited measure of protection, commensurate
6

The City does not dispute that the ban, construed as applying only to commercial advertising, is content-based. We see no
reason to conclude otherwise. “Government regulation of speech
is content-based if a law applies to particular speech because of
the topic discussed or the idea or message expressed.” Reed v.
Town of Gilbert, 135 S. Ct. 2218, 2227 (2015). “Some facial distinctions based on a message are obvious, defining regulated
speech by particular subject matter, and others are more subtle,
defining regulated speech by its function or purpose.” Id. That
said, regulations that apply generally to “advertising” (without
regard for whether the advertisements are commercial) may not
necessarily be content-based. See Lone Star Sec. & Video, Inc. v.
City of Los Angeles, 827 F.3d 1192, 1198-1200 (9th Cir. 2016)
(holding that city ordinances regulating mobile billboard advertising displays were not content-based because “the word ‘advertising’ refers to the activity of displaying a message to the public,
not to any particular content that may be displayed,” and “[t]here
ha[d] been no suggestion that the ordinances apply differently to
. . . political endorsements than to . . . commercial promotional
campaigns.” (emphasis added)). We need not resolve that broader
issue here because the City has stipulated that the ban applies
only to commercial advertising and therefore is content-based.

15a
with its subordinate position in the scale of First
Amendment values, and is subject to modes of regulation that might be impermissible in the realm of noncommercial expression.” Bd. of Trustees of State Univ.
of New York v. Fox, 492 U.S. 469, 477 (1989) (internal
alterations, citations, and quotation marks omitted).
More recently, in Sorrell, the Court stated that “heightened judicial scrutiny” applied to a Vermont law regulating commercial speech because the law “impose[d]
burdens that [we]re based on the content of speech and
that [we]re aimed at a particular viewpoint.” 564 U.S.
at 565. However, the Court did not elaborate on what
“heightened scrutiny” for content-based restrictions on
commercial speech would entail or whether such scrutiny should apply to all commercial speech restrictions.
Instead, the Court applied the “special commercial
speech inquiry,” i.e. the Central Hudson test, explaining
that the outcome was the same whether that standard
or “a stricter form of judicial scrutiny [was] applied.”
Id. at 571. And the Supreme Court subsequently has
suggested that commercial speech restrictions remain
“subject to the relaxed scrutiny outlined in Central
Hudson.” Matal v. Tam, 137 S. Ct. 1744, 1763-64
(2017).
Following Sorrell, this Court has continued to apply
Central Hudson’s intermediate scrutiny test to commercial speech restrictions. See Centro de la Comunidad
Hispana de Locust Valley v. Town of Oyster Bay, 868
F.3d 104, 112-13 (2d Cir. 2017); see also Poughkeepsie
Supermarket Corp. v. Dutchess Cty., N.Y., 648 F. App’x
156, 157 (2d Cir. 2016) (summary order) (“Restrictions

16a
on commercial speech are subject to intermediate scrutiny under Central Hudson.”). Other Circuits have similarly concluded that the Central Hudson intermediate
scrutiny test for commercial speech survives Sorrell.
See, e.g., Retail Digital Network, LLC v. Prieto, 861 F.3d
839, 842 (9th Cir. 2017) (en banc) (“Sorrell did not
modify the Central Hudson standard.”); 1-800-411Pain Referral Service, LLC v. Otto, 744 F.3d 1045, 1055
(8th Cir. 2014) (the “upshot” of Sorrell is that “when a
court determines commercial speech restrictions are
content- or speaker-based, it should then assess their
constitutionality under Central Hudson”); Missouri
Broadcasters Ass’n v. Lacy, 846 F.3d 295, 300 n.5 (8th
Cir. 2017) (reaffirming that content- and speakerbased commercial speech restrictions are evaluated
under Central Hudson); In re Brunetti, 877 F.3d 1330,
1350 (Fed. Cir. 2017) (“[P]urely commercial speech
[is] reviewed according to the intermediate scrutiny
framework established in Central Hudson.”); Flying
Dog Brewery, LLLP v. Michigan Liquor Control Comm’n,
597 F. App’x 342, 365 (6th Cir. 2015) (“[A]lthough Sorrell stated that ‘heightened judicial scrutiny’ applied,
it reaffirmed the use of the Central Hudson test.”).
Other Circuits have avoided the question, noting that
the Supreme Court did not resolve the issue in Sorrell.
See Educational Media Co. at Va. Tech, Inc. v. Inlsey [sic],
731 F.3d 291, 298 n.4 (4th Cir. 2013) (“To be sure, the
question of whether Sorrell’s ‘heightened scrutiny’ is,
in fact, strict scrutiny remains unanswered.”); Express
Oil Change, L.L.C. v. Miss. Bd. of Licensure for Prof ’l
Eng’rs & Surveyors, 916 F.3d 483, 493 n.18 (5th Cir.
2019) (“We do not reach the issue of whether Sorrell

17a
. . . altered the commercial speech analysis.”); Ocheesee
Creamery LLC v. Putnam, 851 F.3d 1228, 1235 n.7
(11th Cir. 2017) (“We need not wade into these troubled
waters . . . because the State cannot survive Central
Hudson scrutiny.”). No Court of Appeals has concluded
that Sorrell overturned Central Hudson.
We agree with our sister circuits that have held
that Sorrell leaves the Central Hudson regime in place,
and accordingly we assess the constitutionality of the
City’s ban under the Central Hudson standard.7

7

In addition, even if strict scrutiny applied to some commercial speech restrictions after Sorrell, we doubt it would apply to
this one. The statute in Sorrell was content- and speaker-based
in that it targeted a single category of speech by a single category
of speaker: marketing carried out by pharmaceutical manufacturers. Sorrell, 564 U.S. at 563-64. The Supreme Court had no doubt
that the statute “impose[d] an aimed, content-based burden” on
particular speakers. Id. at 564; see id. at 565 (“Formal legislative
findings accompanying [the statute] confirm that the law’s express purpose and practical effect are to diminish the effectiveness of marketing by manufacturers of brand-name drugs.”).
Here, by contrast, the City’s ban covers the full range of commercial advertising. There is no suggestion that the City is trying
to “quiet[ ]” truthful speech with a particular viewpoint that it
“fear[s] . . . might persuade.” Id. at 576. Vugo does not contend
that the advertising displayed on its software platform would differ in content from the advertisements displayed on Taxi TV—nor
is there any indication in the record that that is the case. Thus,
to the extent strict scrutiny might apply to some commercial
speech restrictions out of concern that the government is seeking
to “keep[] would-be recipients of the speech in the dark,” 44 Liquormart, Inc. v. Rhode Island, 517 U.S. 484, 523 (1996) (Thomas, J.,
concurring), or otherwise prevent the public from receiving certain
truthful information, that concern is not present here. See also id.
at 503 (Stevens, J., plurality opinion) (joined by Kennedy, J. and

18a
B. The Prohibition Survives Scrutiny Under
Central Hudson
Under Central Hudson, we must determine
whether: (1) the speech restriction concerns lawful activity; (2) the City’s asserted interest is substantial;
(3) the prohibition “directly advances” that interest;
and (4) the prohibition is no more extensive than necessary to serve that interest. 447 U.S. at 566; see also
Centro de la Comunidad Hispana, 868 F.3d at 113. The
parties agree that the first prong is satisfied. Accordingly, below we consider only the remaining three
prongs.
1. Prong Two: The City’s Asserted Interest
The district court held that the City’s asserted interest—to protect passengers from the annoying sight
and sound of in-ride advertisements—is substantial.
We agree.
Vugo’s argument to the contrary mistakes the relevant inquiry. Vugo argues that the City’s ban was
“designed” to suppress speech that “some people didn’t
like,” and that the City cannot ban advertisements just
because it “believes the content of advertising is
‘uniquely annoying.’ ” Appellee Br. at 23 (quoting City’s
Mem. of Law in Support of Cross-Motion for Summary
Judgment at 20, ECF No. 48, Vugo, Inc. v. City of New
York, No. 1:15-cv-08253 (S.D.N.Y. Aug. 26, 2016)); see
Ginsburg, J.) (“The First Amendment directs us to be especially
skeptical of regulations that seek to keep people in the dark for
what the government perceives to be their own good.”).

19a
also Tam, 137 S. Ct. at 1765 (articulating the “fundamental principle of the First Amendment that the government may not punish or suppress speech on
disapproval of the ideas or perspectives the speech conveys”).
The second prong of Central Hudson, however,
asks us to evaluate the City’s asserted goal in enacting
the regulation. Here, the City’s asserted goal is to protect its citizens from the offensive sight and sound of
advertisements—not their content—while they are
traveling through the city by car.8 That interest is
clearly substantial. City governments have a substantial interest in cultivating “esthetic values” and preventing “undue annoyance.” Members of City Council
of City of Los Angeles v. Taxpayers for Vincent, 466 U.S.
789, 805 (1984); Village of Schaumburg v. Citizens for
a Better Envm’t, 444 U.S. 620, 632 (1980); see also
Metromedia, 453 U.S. at 507-08 (“the appearance of the
city” is a “substantial governmental” interest); Kovacs
v. Cooper, 336 U.S. 77, 87 (1949) (governments are empowered to protect “the quiet and tranquility so desirable for city dwellers”); Clear Channel Outdoor, Inc. v.
City of New York, 594 F.3d 94, 103-04 (2d Cir. 2010)
(“protecting the aesthetic appearance of a city” is a
substantial government goal that justifies regulating
the display of advertisements). This is as true in publicly regulated transportation as it is anywhere else
in the city. See Taxpayers for Vincent, 466 U.S. at 806
8

In support of this argument, the City submitted evidence
that passengers find the fact, not the content, of in-ride advertisements annoying.

20a
(“[T]he city was entitled to protect unwilling viewers
against intrusive advertising that may interfere with
the city’s goal of making its buses ‘rapid, convenient,
pleasant, and inexpensive.’ ” (citing Lehman v. City of
Shaker Heights, 418 U.S. 298, 302-03 (1974) (plurality
opinion))). Thus, the City’s asserted interest is substantial.
2. Prongs Three and Four: “Reasonable
Fit”
“The last two steps in the [Central Hudson] analysis have been considered, somewhat in tandem, to determine if there is a sufficient ‘fit between the
regulator’s ends and the means chosen to accomplish
those ends.’ ” Bad Frog Brewery, Inc. v. N.Y. State Liquor Auth., 134 F.3d 87, 98 (2d Cir. 1998) (quoting Posadas de Puerto Rico Associates v. Tourism Co. of Puerto
Rico, 478 U.S. 328, 341 (1986)) (alterations omitted).
“The burden to establish that ‘reasonable fit’ is on the
government agency defending its regulation, though
the fit need not satisfy a least-restrictive-means standard.” Id. (quoting City of Cincinnati v. Discovery Network, Inc., 507 U.S. 410, 416 (1993)). That is, the fit
need not be “perfect,” but simply “reasonable.” Discovery Network, 507 U.S. at 416 n.12 (quoting Fox, 492 U.S.
at 480). Central Hudson requires “not necessarily the
single best disposition but one whose scope is in proportion to the interest served.” Fox, 492 U.S. at 480 (internal citations and quotation marks omitted).

21a
i. Prong Three
To satisfy the third prong of Central Hudson, the
City must demonstrate that (1) “the harms it recites
are real,” and (2) “that its restriction will in fact alleviate them to a material degree.” Edenfield v. Fane, 507
U.S. 761, 771 (1993). Vugo argues, and the district court
agreed, that the in-ride advertising ban fails at this
third prong because the exception for advertising on
Taxi TVs renders the ban unconstitutionally underinclusive. We disagree.
As an initial matter, we conclude that the City has
substantiated the harm it seeks to prevent. The Supreme Court has “permitted litigants to justify speech
restrictions by reference to studies and anecdotes,”
such as those submitted by the City. Lorillard Tobacco
Co. v. Reilly, 533 U.S. 525, 555 (2001) (internal citation
and quotation marks omitted). In this case, the City
provided survey data indicating that passengers dislike Taxi TV. In response to a 2011 survey of taxi passengers, nearly one-third of respondents indicated that
“Taxi TV is annoying.” App. 313. Passengers have complained that the screens are difficult to turn off and
cause motion sickness. They have singled out the advertisements on Taxi TV as especially irritating. Vugo
points to only one contrary piece of evidence in the record: a November 2015 Quinnipiac University survey
finding that forty-five percent of respondents found
Taxi TV to be a “pleasant diversion” while forty-one
percent deemed it an “annoyance.” App. at 482, 487,
490. This single third-party survey does not provide a
basis for us to second guess the City’s conclusion that

22a
in-ride advertisements are annoying to its citizens—a
conclusion it reached based on its own survey results
and firsthand experience receiving complaints from
customers.9
Next, we must consider whether the City’s prohibition on advertising in taxicabs and FHVs adequately
alleviates these harms, despite the exception for Taxi
TV. “Although a law’s underinclusivity raises a red flag,
the First Amendment imposes no freestanding ‘underinclusiveness limitation.’ ” Williams-Yulee v. Fla. Bar,
135 S. Ct. 1656, 1668 (2015) (quoting R.A.V. v. St. Paul,
505 U.S. 377, 387 (1992)); see also Anderson v. Treadwell, 294 F.3d 453, 463 (2d Cir. 2002) (“[U]nderinclusiveness will not necessarily defeat a claim that a state
interest has been materially advanced.” (citing Metromedia, 453 U.S. at 511 (plurality opinion))). Indeed,
“[i]t is always somewhat counterintuitive to argue
that a law violates the First Amendment by abridging
too little speech.” Williams-Yulee, 135 S. Ct. at 1668.
Underinclusiveness is problematic insofar as it, inter
alia, “raise[s] doubts about whether the government is
in fact pursuing the interest it invokes, rather than
disfavoring a particular speaker or viewpoint,” or “reveal[s] that a law does not actually advance a compelling interest.” Id.; see also City of Ladue v. Gilleo, 512
U.S. 43, 52-53 (1994) (“Exemptions from an otherwise
legitimate regulation of a medium of speech may be
noteworthy” because of the “risks of viewpoint and
9

Moreover, we see no reason why the City may not seek to
alleviate a harm when the harm is experienced by forty-one percent of the population.

23a
content discrimination” and because such exemptions
“may diminish the credibility of the government’s rationale for restricting speech in the first place.”); Clear
Channel, 594 F.3d at 106 (“A regulation may [ ] be
deemed constitutionally problematic if it contains exceptions that ‘undermine and counteract’ the government’s asserted interest.” (quoting Rubin v. Coors
Brewing Co., 514 U.S. 476, 489 (1995))). The Supreme
Court has also found impermissible regulations that
draw distinctions between categories of speech that
“bear[ ] no relationship whatsoever to the particular
interests that the [government] has asserted.” Discovery
Network, 507 U.S. at 424; see also Clear Channel, 594
F.3d at 106.
The City’s in-ride advertising ban is not unconstitutionally underinclusive. First, the ban materially
advances the City’s interest in reducing passenger annoyance, notwithstanding the Taxi TV exception.10
Second, the City’s justification for the Taxi TV exception is sufficiently related to its interest in enacting the
ban because both are aimed at improving the overall
in-ride experience, albeit in different ways: the Taxi TV
exception facilitated the installation of equipment that
(among other things) enabled passengers to pay for
taxi rides by credit card, which is their decided preference, and the ban applicable to FHVs frees passengers
from advertisements, which they find annoying. Third,
the ban would survive intermediate scrutiny even if
the exception and the ban were not related because
10

Vugo does not contend that the government’s real end is to
discriminate on the basis of message.

24a
such a relationship is not an independent requirement
under the First Amendment. The “relationship test” is
an analytical tool that in some circumstances indicates
that a speech restriction is unconstitutional because it
casts doubt on whether a regulation is “ ‘part of a substantial effort to advance a valid state interest.’ ” Clear
Channel, 594 F.3d at 108 (quoting Bad Frog Brewery,
134 F.3d at 100). That is not the case here.
a. The Taxi TV Exception Does Not
Undermine the City’s Asserted
Interest
The exception for Taxi TV does not render the ban
ineffective. This case is unlike Rubin v. Coors Brewing
Co., 514 U.S. 476 (1995) and Greater New Orleans
Broadcasting Ass’n, Inc. v. United States, 527 U.S. 173
(1999), on which Vugo relies. In Rubin, the government
asserted that a prohibition on the disclosure of alcohol
content on beer labels would combat the problem of
beer companies competing for customers on the basis
of alcohol content (“strength wars”). Rubin, 514 U.S. at
488. The Court explained that the scheme did not
make “rational sense” because other provisions of the
scheme left open ubiquitous avenues for strength
wars—such as television advertising for beer—that
“directly undermine[d] and counteract[ed] [the] effects” of the ban on such disclosure on labels. Id. at 488,
489. The “irrationality” of the “regulatory framework
ensure[d] that the labeling ban w[ould] fail to achieve
its end.” Id. at 488 (emphasis added). Similarly, in
Greater New Orleans Broadcasting, the Court found

25a
that exceptions to a prohibition on advertisements
about gambling—for, among other things, tribal gambling authorized by state compacts and governmentoperated casinos—swallowed the rule, since the regulation “merely channel[led] gamblers to one casino
rather than another.” 527 U.S. at 189. In this case, by
contrast, the Taxi TV exception does not wholly undermine the effectiveness of the general restriction on
in-ride advertising by allowing the proliferation of advertisements to the same degree through other avenues, as in Rubin, or by channeling riders to taxicabs
where there are offensive in-ride advertisements, as in
Greater New Orleans.
Nor is the exception so large that the rules fail to
directly advance New York’s interest in reducing the
number of annoying ads passengers must endure. See
Discovery Network, 507 U.S. at 417-18 (regulation did
not substantially advance the city’s interest because it
eliminated only 4% of unsightly news racks); Bolger v.
Youngs Drug Prods. Corp., 463 U.S. 60, 73 (1983) (striking down prohibition that “provide[d] only the most
limited incremental support for the interest asserted”);
Bad Frog Brewery, 134 F.3d at 100 (“[A] state must
demonstrate that its commercial speech limitation is
part of a substantial effort to advance a valid state interest, not merely the removal of a few grains of offensive sand from a beach of vulgarity.”). On the record
before the district court, the FHVs covered by the challenged rules accounted for over one-third of daily TLC
passenger trips in 2016. Special App. at 15; App. at

26a
482-83.11 As a result, over one-third of the TLC’s ridership is spared advertisements during their rides. This
reduction is substantial. See United States v. Edge
Broadcasting Co., 509 U.S. 418, 432-33 (1993) (a regulation that reduced the percentage of radio air time
playing lottery ads from 49% to 38% “significan[tly]”
advanced the government’s interest). The government
is not required to “make progress on every front before
it can make progress on any front.” Id. at 434.
b. The Justification for the Taxi TV
Exception Is Not Too Attenuated
from the Justification for the
Commercial Advertising Ban
Vugo next argues that the ban is unconstitutional
because the justification for the Taxi TV exception is
unrelated to the justification for the commercial advertising ban. Appellee Br. at 30-33. Vugo relies on
Discovery Network, in which the Supreme Court considered a ban enacted by the City of Cincinnati on
newsracks dispensing commercial publications, but
not newsracks dispensing newspapers. Cincinnati enacted the ban to “ensur[e] safe streets and regulat[e]
visual blight.” 507 U.S. at 415. Yet, the exempted
newspaper newsracks were “equally unattractive” and
11

The number of FHV rides relative to taxicab rides continues
to grow. See, e.g., Johana Bhuiyan, Ride-hail apps like Uber and
Lyft generated 65 percent more rides than taxis did in New York
in 2017, VOX (Mar. 15, 2018, 5:16 PM), https://www.vox.com/2018/
3/15/17126058/uber-lyft-taxis-new-york-city-rides (in December 2017,
FHVs made 65% more pickups than taxis).

27a
“arguably the greater culprit because of their superior
number.” Id. at 425, 426. Cincinnati justified nevertheless excluding newspaper newsracks from the ban on
the ground that “commercial speech has only a low
value.” Id. at 425-26, 418-19. The Court held that this
justification for distinguishing between noncommercial and commercial publications was insufficient because the distinction had “absolutely no bearing on the
interests [the City] ha[d] asserted.” Id. at 428.
Vugo suggests that the “relationship test” set out
in Discovery Network requires that the justification for
the exception appeal to the identical interest asserted
by the City in supporting the restriction. On that view,
the only legitimate basis for exempting any advertisements from the City’s ban would be that such advertisements are less annoying than others. See Special
App. at 16-17. According to Vugo, because the City has
not argued that advertisements on Taxi TV are any
less annoying than advertisements on Vugo’s platform
would be, the exception is not sufficiently related to the
City’s asserted interest in passing the ban (i.e., sparing
riders from annoying advertisements).
But Discovery Network does not impose such a
stringent standard. The Supreme Court held only that
distinctions that bear “no relationship whatsoever to
the particular interests that the city ha[d] asserted”
are impermissible. Discovery Network, 507 U.S. at 424;
see also id. at 428 (“[T]he distinction . . . has absolutely
no bearing on the interests . . . asserted.” (emphasis
added)); Clear Channel, 594 F.3d at 106 (regulations
that draw “arbitrary distinctions” are unconstitutional).

28a
The relationship between Cincinnati’s ban and its exception was truly arbitrary: there was no nexus between the allegedly “low value” of commercial speech
and the aesthetic and safety interests Cincinnati
sought to advance by banning newsracks. The Court
suggested that had there been “some basis for distinguishing between ‘newspapers’ and ‘commercial handbills’ that [was] relevant to an interest asserted by the
City,” that would have been sufficient. Discovery Network, 507 U.S. at 428 (emphasis added).
Moreover, Vugo’s interpretation of the “relationship” required under Discovery Network conflicts with
the Supreme Court’s “reject[ion of ] ‘the argument that
a prohibition against the use of unattractive signs cannot be justified on [a]esthetic grounds if it fails to apply
to all equally unattractive signs wherever they might
be located.’ ” Clear Channel, 594 F.3d at 106 (quoting
Taxpayers for Vincent, 466 U.S. at 810). If Vugo were
right that a government can only distinguish between
speech based on its tendency to produce the harm the
government seeks to prevent through its prohibition,
then a prohibition against the use of unattractive signs
could not be justified if it failed to apply to all equally
unattractive signs wherever they might be located, a
position the Supreme Court has rejected.
Here, the City’s basis for distinguishing between
advertisements on Taxi TV and all other advertisements in taxis and FHVs is sufficiently related to the
City’s asserted interest. Both the restriction and the
exception concern passenger comfort and convenience:
passengers prefer not to see advertisements while

29a
riding in cabs and FHVs, but they also prefer, for example, to be able to pay for their rides by credit card,
which TPEP and LPEP enable. The City’s ban seeks to
balance these preferences, permitting advertisements
exclusively on Taxi TV in order to offset the cost of the
TPEP and LPEP systems to vehicle owners. Thus, the
City’s rules, as a whole, reflect a considered determination about how best to improve the overall experience
of passengers riding in taxis and FHVs. See id. at 108
(“[T]here is clearly a relationship between the City’s
Zoning Resolution, which regulates the placement of
outdoor commercial advertising, and its interest in
aesthetics and traffic safety.”); see also Metro Lights,
L.L.C. v. City of Los Angeles, 551 F.3d 898, 905 (9th Cir.
2009) (“Central Hudson requires a logical connection
between the interest a law limiting commercial speech
advances and the exceptions a law makes to its own
application.”). We also note that, unlike in Discovery
Network, the City’s distinction is well-founded and
the regulations “go[ ] a long way,” Metro Lights, 551
F.3d at 911, toward achieving the City’s goal. See Clear
Channel, 594 F.3d at 108 (finding a “clear” relationship
between the distinctions drawn between speech in a
zoning resolution and the City’s interest in passing
that resolution in part because the regulations, “as a
whole,” were “ ‘part of a substantial effort to advance a
valid state interest’ ” (quoting Bad Frog Brewery, 134
F.3d at 100)); Metro Lights, 551 F.3d at 911.

30a
c. The “Relationship Test” in Discovery Network Is an Analytical
Tool
Separately, even if there were not a sufficient
nexus between the City’s justifications for the rule and
its exception, the City’s ban would still pass muster because such a relationship is not an independent requirement under the First Amendment. Although
Vugo insists that the First Amendment categorically
requires a relationship between the basis for a ban on
commercial speech and the justification for any exceptions to that ban, we find no support for that position
in the Supreme Court’s decisions addressing regulation of commercial speech, save for a few lines in Discovery Network. Placed in the context of Central
Hudson’s third prong, the relationship between a government’s interest in restricting speech and its justification for exempting some speech from that restriction
is not a freestanding requirement but rather an analytical tool for assessing whether a regulation is “ ‘part
of a substantial effort to advance a valid state interest.’ ” Clear Channel, 594 F.3d at 108 (quoting Bad Frog
Brewery, 134 F.3d at 100). The absence of a relationship supports—but does not compel—a conclusion that
the ban is discriminatory, ineffective, or irrational
such that it is unconstitutionally underinclusive.
Sometimes, a disconnect between the government’s interest in a speech restriction and the government’s justification for exempting certain speech from
that restriction reveals that the government is disfavoring a particular speaker or that a law does not

31a
actually advance a compelling state interest. That was
true in Discovery Network, in which the Supreme
Court concluded that the newspaper exception to Cincinnati’s newsrack ban both reflected bias against commercial speech and rendered the ban ineffective. 507
U.S. at 419 (the city “seriously underestimate[d] the
value of commercial speech”); id. at 426 (newspapers
were “arguably the greater culprit [of blight] because
of their superior number”). It was also true in Sorrell,
in which the Supreme Court explained that the “exceptions based in large part on the content of a purchaser’s
speech” were such that “[t]he law on its face burdens
disfavored speech by disfavored speakers.” 564 U.S. at
564. And in Rubin, the Court found that the exceptions
“directly undermine[d] and counteract[ed] [the] effects” of the ban. 514 U.S. at 489. In such cases, the exception renders the ban impermissibly underinclusive.
But that is not always the case. The absence of a
relationship is not—in its own right—constitutionally
fatal. Indeed, exceptions to speech restrictions can be
justified on grounds not related to the government’s
interest in enacting the restriction, so long as the exceptions do not “compromise[ ]” the “validity” of the
government’s asserted interest. Taxpayers for Vincent,
466 U.S. at 811; see also Nat’l Fed’n of the Blind v.
F.T.C., 420 F.3d 331, 346 (4th Cir. 2005) (“A distinction
among speakers is . . . not objectionable per se, but only
because it renders implausible the government’s claim
that the regulation making this distinction is narrowly
tailored to address a certain interest.”). In Taxpayers
for Vincent, for example, the Court found an exception

32a
for signs on privately owned land justified in part by
“[t]he private citizens’ interest in controlling the use of
his own property,” which was not related to the “visual
assault . . . presented by an accumulation of signs” that
the City sought to stem through its regulation. 466 U.S.
at 811, 807. In Clear Channel, we upheld a regulation
banning billboard advertising near highways in New
York City, except for signs on Transit Authority property, even though the city had identified no reason to
think that signs on Transit Authority property were
less dangerous or ugly than signs on other property.
See 594 F.3d at 106. We explained that “[t]he fact that
the City has chosen to value some types of commercial
speech over others does not make the regulation irrational.” Id. at 109 (internal citation omitted). And, in
Metromedia, the plurality opinion accepted the city’s
judgment that commercial enterprises, as well as the
public, had a greater interest in onsite advertising
than offsite advertising and accordingly decided that
“the city’s interests in traffic safety and [a]esthetics . . .
should yield” in the case of the former but not the latter. 453 U.S. at 512 (plurality opinion).
On the logic of these decisions, the First Amendment allows a government to carve out exceptions to a
speech restriction for reasons unrelated to the government’s basis for enacting the restriction in the first
place. See Nat’l Fed’n of the Blind, 420 F.3d at 345 (the
First Amendment requires only “a legitimate ‘neutral
justification’ for” regulating some speakers but not
others (quoting Discovery Network, 507 U.S. at 42930)). Otherwise, a government could never address

33a
competing concerns by crafting exceptions to speech
restrictions. For example, a government could never
pass a regulation reflecting its judgment that its interest in aesthetics were outweighed by some commercial
interests (onsite advertising) but not others (offsite advertising). See Metromedia, 453 U.S. at 512 (plurality
opinion). The First Amendment does not impose such
stringent constraints on government decision-making.
In this case, although the City’s reason for excluding Taxi TV from its in-ride advertisement ban is not
directly related to the City’s interests in enacting the
ban, the exclusion is nevertheless rational.12 See Clear
Channel, 594 F.3d at 109. The rules “reflect[ ] a decision
by the city that” its interest, and the public’s interest,
in the LPEP and TPEP systems “is stronger than the
[C]ity’s interests in . . . [a]esthetics.” Metromedia, 453
U.S. at 512. We see no basis to upset the City’s policy
judgment.
ii. Prong Four
Finally, under Central Hudson’s fourth prong, the
City must establish “that the regulation [does] not
burden substantially more speech than is necessary to further the government’s legitimate interests.”
Clear Channel, 594 F.3d at 104; see also Safelite Grp.,
Inc. v. Jepsen, 764 F.3d 258, 265 (2d Cir. 2014)
12

As already noted, supra note 10, Vugo does not argue that
the City was in fact motivated by a desire to restrict a particular
category of speech, rather than its stated desire to improve the inride experience.

34a
(assessing whether an ordinance was “more restrictive
than necessary to effectuate the government’s legitimate interests”). In other words, the government must
“affirmatively establish” a reasonable fit between the
regulation and its goal. Fox, 492 U.S. at 480. This prong
does not require “that there be no conceivable alternative” to the government’s approach, or that the government’s regulation be the least restrictive means of
advancing its asserted interests. Id. at 478; see also
Clear Channel, 594 F.3d at 104. In addition, the City is
afforded “considerable leeway in determining the appropriate means to further a legitimate government
interest.” Clear Channel, 594 F.3d at 105 (internal alterations and quotation marks omitted). We are “loath
to second-guess the [g]overnment’s judgment to that
effect.” Fox, 492 U.S. at 478; see also id. at 481 (“[W]e
. . . provide the Legislative and Executive Branches
needed leeway in a field . . . traditionally subject to
governmental regulation.” (internal quotation marks
omitted)).
The City’s determination here about how to regulate in-ride advertising is “reasonable.” Clear Channel,
594 F.3d at 104. Vugo, in effect, contends that, instead
of entirely banning advertising in FHVs, the City
could carve out a Taxi TV-like exception for FHVs. Specifically, Vugo argues that the TLC could allow video
advertising but require that the hardware include an
on-off switch or mute button, and/or impose contentneutral limitations on the placement and size of the
video advertisements. Appellee Br. at 34. We have before rejected a contention analogous to the one that

35a
Vugo raises here. In Clear Channel, plaintiff argued
that the city should have “adopted a ‘size and spacing’
regulatory regime” rather completely prohibiting the
display of signs in certain locations. Clear Channel,
594 F.3d at 105. We disagreed, deferring to the city’s
judgment about “the appropriate means to further [its]
legitimate governmental interest.” Id. Similarly, in
Metromedia, the Supreme Court explained that “[i]f
the city has a sufficient basis for believing that billboards are traffic hazards and are unattractive, then
obviously the most direct and perhaps the only effective approach to solving the problems they create is to
prohibit them.” 453 U.S. at 508; see also Taxpayers for
Vincent, 466 U.S. at 817; Fox, 492 U.S. at 480-81.
Here, too, we must defer to the City’s judgment.
The record shows that, notwithstanding the limitations the City places on Taxi TVs, passengers find the
advertisements on Taxi TV annoying. Therefore, a restriction on the size of the devices on which FHV drivers would run Vugo’s platform would not substantially
further the interests the City’s ban seeks to advance.
In addition, the record supports the City’s position
that on-off or mute buttons would not eliminate the
harms identified by passengers that the ban seeks to
redress, given that passenger complaints about Taxi
TV often include frustration with malfunctioning onoff switches and mute buttons—and with needing to
navigate the on-screen interface in order to obtain
peace and quiet in the first place. In other words,
Vugo’s suggested modifications to the regulatory
scheme would replicate the precise system that has

36a
already proved to hinder passenger comfort and convenience.
Thus, we conclude that the City’s determination
that banning ads altogether is the most effective approach was reasonable. Like the ban on billboards in
Taxpayers for Vincent, Metromedia, and Clear Channel,
the City’s prohibition is the “most direct and perhaps
the only effective approach” to prevent the harms of
intrusive and annoying advertisements. Taxpayers for
Vincent, 466 U.S. at 817 (internal quotation marks
omitted).
CONCLUSION
The City’s prohibition on advertising in FHVs does
not violate the First Amendment under Central Hudson.
The City’s asserted interest is substantial, the prohibition “directly advances” that interest, and the prohibition is no more extensive than necessary to serve that
interest. Accordingly, we REVERSE the judgment of
the district court and direct the entry of judgment in
favor of the City.

37a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
VUGO, INC.,
Plaintiff,

No. 15-CV-8253 (RA)
OPINION & ORDER

v.
CITY OF NEW YORK,

(Filed Feb. 22, 2018)

Defendant.
RONNIE ABRAMS, United States District Judge:
Citing an interest in promoting and protecting
passenger comfort, the New York City Taxi and Limousine Commission (“TLC”) promulgated rules that prohibit the display of advertising in certain types of
for-hire vehicles without prior authorization. Although
the TLC’s regulatory scheme permits advertising in
medallion taxis and street-hail liveries, it is effectively
banned in all other vehicles. Vugo, Inc., a Minnesotabased company that places digital content, including
advertising, in rideshare vehicles such as those affiliated with Uber and Lyft across the country, has sought
to expand its business into New York City. After the
TLC refused Vugo authorization to do so, it brought
this First Amendment challenge.
Both Vugo and the City now move for summary
judgment. Because the City is unable to justify the
challenged regulations, even under the relaxed judicial
scrutiny applied to restrictions on commercial speech

38a
first articulated in Central Hudson Gas & Electric
Corp. v. Public Service Commission of New York, Vugo’s
motion is granted and the City’s motion is denied.
BACKGROUND
The following facts, which are based on the parties’ Rule 56.1 statements and supporting materials,
are undisputed unless otherwise noted.1 The TLC, a
City agency, is responsible for the “regulation and supervision” of vehicles for hire in the City. N.Y.C. Charter § 2303(a). In connection with its obligation to
establish a comprehensive transportation policy, it is
tasked with considering, among other things, “the promotion and protection of the public comfort.” Id.
§ 2300. Its authority extends to “[t]he regulation and
supervision of standards and conditions of service,” id.
§ 2303(b)(2), and it is expressly empowered to establish “standards of . . . comfort . . . in the operation of
vehicles and auxiliary equipment,” id. § 2303(b)(6). As
of August 2016, the TLC oversaw more than 94,000 vehicles, including medallion taxis and for-hire vehicles
1

These include the following submissions made in connection with the parties’ respective motions for summary judgment:
Plaintiff ’s Rule 56.1 Statement (“Pl. 56.1”), Defendant’s Rule 56.1
Statement (“Def. 56.1”), Defendant’s Response to Plaintiff ’s Rule
56.1 Statement (“Def. Resp. to Pl. 56.1”), and the Declaration of
Ryan Wanttaja in Support of Defendant’s Motion for Summary
Judgment (“Wanttaja Decl.”). Where facts stated in a Rule 56.1
statement are supported by testimonial or documentary evidence,
and denied solely by a conclusory statement by the other party
without citation to conflicting testimonial or documentary evidence, the Court finds such facts to be true. See S.D.N.Y. Local
Rule 56.1(c)-(d).

39a
(“FHVs”).2 Def. 56.1 ¶¶ 3-4, ECF No. 47. The following
vehicles are considered FHVs: community-based liveries, black cars, luxury limousines, and street-hail liveries (“SHLs”).3 Def. 56.1 ¶ 5.
The TLC currently allows two types of regulated
vehicles to display interior advertising: medallion taxis
and SHLs. Pl. 56.1 ¶¶ 10, 12, 14, ECF No. 39. Medallion
taxis are New York City’s ubiquitous “yellow cabs.” Pl.
56.1 ¶ 4. SHLs, which are commonly known as “green”
or “borough” taxis, are a relatively new class of FHVs
that are authorized to accept street hails in the Bronx,
Brooklyn, Queens (with the exception of the airports),
Staten Island, and in certain parts of Manhattan. Def.
56.1 ¶¶ 5, 30. In addition to being the only two types of
regulated vehicles allowed to display interior advertising, medallion taxis and SHLs are also the only regulated vehicles that accept street hails. Def. 56.1 ¶ 31.
Before May 2005, no TLC-regulated vehicles were
authorized to display interior advertising. See Def. 56.1
¶ 13; Wanttaja Decl. ¶ 22, ECF No. 50. The rules being
challenged in this action, which prohibit interior advertising in FHVs, were originally adopted as a single
2

The New York City Administrative Code defines “for-hire
vehicle” as “a motor vehicle carrying passengers for hire in the
city, with a seating capacity of twenty passengers or less, not including the driver, other than a taxicab, coach, wheelchair accessible van, commuter van or an authorized bus operating pursuant
to application provisions of law.” N.Y.C. Admin. Code § 19-502(g).
3
Unless otherwise specified, all further references to “FHV”
will not include SHLs and instead refer only to those FHVs that
are not permitted to display advertisements: community-based
liveries, black cars, and luxury limousines.

40a
rule (the “Original Rule”) on August 5, 1999. See Pl.
56.1 ¶ 3. The Original Rule provided, in relevant part,
that “[a]n owner may not display any advertising, either on the exterior or the interior of a for-hire vehicle,
unless such advertising has been authorized by the
Commission.” Wanttaja Decl. Ex. B, at NYC0263. It
was adopted “to establish consistency between TLC’s
regulation of advertising in medallion taxicabs and
FHVs.” Wanttaja Decl. ¶ 20. The rule governing interior advertising in medallion taxis at the time prohibited taxicab owners from “display[ing] inside a taxicab
any advertising or other notice not specifically authorized by [the Taxicab Owners Rules] or the Commission’s
Marking Specifications for Taxicabs unless approved
by the Commission.” Wanttaja Decl. Ex. A, at NYC0452.
The Original Rule was codified at 35 R.C.N.Y.
§ 6-12(f )(2). Wanttaja Decl. Ex. B, at NYC0263. In
2010, the Original Rule was re-codified as 35 R.C.N.Y.
§ 59A-29(e)(1) as part of a reorganization of the TLC’s
rulebooks. Wanttaja Decl. ¶ 21 n.7. The TLC also
adopted a parallel provision that applies to FHV owners, which is codified at 35 R.C.N.Y. § 59B-29(e)(1). Pl.
56.1 ¶ 6. The language in these provisions differs
somewhat from the Original Rule, but the parties
agree that the differences are not “substantive.” Pl.
56.1 ¶ 4; Wanttaja Decl. ¶ 21 n.7. In its current form,
35 R.C.N.Y. § 59A-29(e)(1) provides that “[a]n Owner
must not display any advertising on the exterior or the
interior of a [FHV] unless the advertising has been authorized by the Commission and a License has been issued to the Owner following the provisions of the

41a
Administrative Code.” Similarly, 35 R.C.N.Y. § 59B29(e)(1) provides that “[a] Vehicle must not display advertising on the outside or the inside unless the Commission has authorized the advertising and has given
the Vehicle Owner a permit specifying that the advertising complies with the Administrative Code.”
The TLC disfavors interior advertising in all of the
vehicles that it licenses and regulates. Wanttaja Decl.
¶¶ 25, 28, 52. “Because the Commission had authorized no form of interior advertising in taxicabs or FHVs
prior to 1999, passage of the rule did not alter the fundamental fact that advertising was not authorized in
either taxicabs or FHVs at that time. Rather, the rule
was intended to make clear that interior advertising
was not permitted and inform licensees that they could
not display interior advertising without prior TLC authorization.” Wanttaja Decl. ¶ 22.
The TLC allows advertising in medallion taxicabs
and SHLs for one reason: to offset the costs associated
with the technology systems that must be installed in
those vehicles. See Def. 56.1 ¶ 28; Wanttaja Decl. ¶ 47.
In 2004, the TLC
promulgated rules requiring [medallion] taxicabs . . . to install equipment capable of performing the following functions: (1) electronic
receipt and collection of trip data; (2) acceptance of debit cards and credit cards for
payment; (3) driver receipt of text messages;
and (4) display of route guidance and other
important information to passengers via passenger information monitors [“PIMs”].

42a
Wanttaja Decl. ¶ 30. The new equipment was intended
to serve a variety of policy objectives. The goal of the
electronic receipt and collection of trip data was to establish “an efficient and accurate method of maintaining information regarding the date, time, and location
of passenger pick-ups and drop-offs, duration of the
trip, the number of passengers, and the metered fare
paid by the passenger(s), among other data.” Wanttaja
Decl. ¶ 31. This electronic collection of data was intended to allow the TLC to “more efficiently synthesize
and analyze this enormous volume of data so as to
guide the agency in its day-to-day operations and
larger policy decisions.” Wanttaja Decl. ¶ 31. The acceptance of debit and credit cards was intended to provide a convenience for passengers and improve the
safety of drivers, as they would presumably carry less
cash. Wanttaja Decl. ¶ 32. The purpose behind the text
messaging system was threefold: (1) “to communicate
public service announcements and emergency notifications to taxicab drivers”; (2) “to assist in the recovery
of lost property”; and (3) “to inform drivers of fare opportunities, which [would] improve[ ] overall customer
service.” Wanttaja Decl. ¶ 33. The PIM was intended
“to display the total fare at the end of every trip, communicate public service announcements to passengers,
allow passengers to track their route, and allow passengers to complete credit card payments.” Wanttaja
Decl. ¶ 34. The purpose of these features was to prevent customers from being overcharged by providing
them with greater transparency with respect to their
fare and route. Wanttaja Decl. ¶ 34.

43a
The equipment contemplated by these rules came
to be known as the Taxicab Passenger Enhancement
Program (“TPEP”), which is now required to be installed
in all medallion taxis. Def. 56.1 ¶¶ 8-9; Wanttaja Decl.
¶ 13. A similar system called the Street Hail Livery
Technology System (“LPEP”) must be installed in SHLs.
Wanttaja Decl. ¶ 44. The TPEP and LPEP requirements “added a significant new cost to vehicle owners
without any expectation of increased business.” Wanttaja
Decl. ¶ 47. “[A]s a means by which owners could offset
the new costs,” the TLC crafted an exception to its ban
on interior advertising and promulgated new rules authorizing interior advertising on the PIMs of medallion
taxis and SHLs. Wanttaja Decl. ¶ 47; see also Pl. 56.1
¶¶ 10, 12-13.4 Consequently, as of August 2016, interior advertising was permitted in about twenty-two
percent of the vehicles licensed and regulated by the
TLC. Def. 56.1 ¶ 27.5
Formed in 2015, Vugo is a media distribution company headquartered in Minneapolis, Minnesota that
distributes advertisements, entertainment content,
and public service announcements. Pl. 56.1 ¶¶ 16-17.
4

Although neither of the current LPEP providers offers a
PIM-less system, LPEPs are not required to have a PIM. See
Wanttaja Decl. ¶ 45 & n.13. Interior advertising is not permitted,
however, in SHLs that have LPEPs without PIMs. Def. 56.1 ¶ 21;
see also 35 R.C.N.Y. § 83-31(d)(4)(v).
5
As of August 2016, there were 13,576 medallion taxis,
80,647 FHVs, 289 paratransit vehicles, and 471 commuter vans
licensed by the TLC. Def, 56.1 ¶¶ 6-7. Of the 80,647 FHVs, 18,848
were liveries, 49,801 were black cars, 5,119 were luxury limousines, and 6,879 were SHLs. Def. 56.1 ¶ 7.

44a
Vugo partners with rideshare drivers affiliated with
companies such as Uber and Lyft. Pl. 56.1 ¶ 18. Drivers
download Vugo’s software onto tablets that are mounted
in their vehicles in a manner that allows passengers to
view and interact with the tablets. Pl. 56.1 ¶ 18. Approximately seventy-five percent of the screen displays
primary content—typically video—while the remaining portion is a static display related to the main content, the Vugo logo, and volume controls. Pl. 56.1 ¶ 27.
Passengers cannot turn off the display, but they can reduce the volume to a “near-mute” level. Pl. 56.1 ¶ 30.
Advertisers pay Vugo to display their content and Vugo
provides the drivers with sixty percent of the advertising revenue. Pl. 56.1 ¶ 32.
In the spring of 2015, Vugo launched its beta program, making the platform available to ride-share
drivers across the country. Pl. 56.1 ¶ 33. During the
beta period, a driver from New York City informed
Vugo that TLC rules banned advertising in for-hire vehicles. Pl. 56.1 ¶ 34. Vugo contacted the TLC about entering the New York market and was informed that its
product was prohibited because FHVs are not permitted to display advertisements. Pl. 56.1 ¶¶ 35-37.6

6

Although the challenged ordinances specify that the TLC
may grant permits allowing the display of otherwise prohibited
advertisements, the uncontroverted evidence is that the TLC does
not—and has no intention to—issue such permits. See Pl. 56.1
¶¶ 15, 36-37, 39; Def. Resp. to Pl. 56.1 ¶¶ 15, 36-37, 39.

45a
II.

PROCEDURAL HISTORY

On October 20, 2015, Vugo filed a Complaint alleging that the TLC’s ban on advertising in FHVs violates
the First Amendment. ECF No. 1. Before the Court are
the parties’ cross-motions for summary judgment. ECF
Nos. 38, 45.
STANDARD OF REVIEW
A party is entitled to summary judgment if it
“shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). “A fact is material
if it might affect the outcome of the suit under the governing law, and a dispute is genuine if the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party.” Baldwin v. EMI Feist Catalog,
Inc., 805 F.3d 18, 25 (2d Cir. 2015) (citation and internal quotation marks omitted). “[T]he moving party
bears the burden of demonstrating the absence of a
material factual question, and in making this determination, the court must view all facts ‘in the light most
favorable’ to the non-moving party.” VW Credit, Inc. v.
Big Apple Volkswagen, LLC, No. 11-CV-1950 (PAE),
2012 WL 5964393, at *2 (S.D.N.Y. Nov. 29, 2012) (quoting Dickerson v. Napolitano, 604 F.3d 732, 740 (2d Cir.
2010)).
“When cross motions for summary judgment are
made, the standard is the same for that of individual
motions.” JPMorgan Chase Bank, N.A. v. Freyberg, 171
F. Supp. 3d 178, 184 (S.D.N.Y. 2016). “[N]either side is

46a
barred from asserting that there are issues of fact, sufficient to prevent the entry of judgment, as a matter of
law, against it.” Heublein, Inc. v. United States, 996 F.2d
1455, 1461 (2d Cir. 1993). “[E]ach party’s motion must
be examined on its own merits, and in each case all
reasonable inferences must be drawn against the party
whose motion is under consideration.” Morales v. Quintel Entm’t, Inc., 249 F.3d 115, 121 (2d Cir. 2001).
Because there are no genuine disputes of material
fact, whether either party is entitled to summary judgment will turn entirely upon the City’s ability to satisfy
its burden under the appropriate level of judicial scrutiny.
DISCUSSION
The First Amendment, applicable to the States
through the Fourteenth Amendment, prohibits the enactment of laws “abridging the freedom of speech.” U.S.
CONST. AMEND. I. “Under that Clause, a government,
including a municipal government vested with state
authority, has no power to restrict expression because
of its message, its ideas, its subject matter, or its content.” Reed v. Town of Gilbert, 135 S. Ct. 2218, 2226
(2015) (citation and internal quotation marks omitted).
When a law is challenged under the First Amendment,
the degree of scrutiny applied by courts is often dictated by whether the law restricts speech based on its
substance: content-based laws generally receive strict
scrutiny whereas content neutral laws are subject to
less exacting forms of judicial review. See id. at 2232.

47a
In Reed v. Town of Gilbert, the Supreme Court explained what it means for a law to be content based:
“Government regulation of speech is content based if a
law applies to particular speech because of the topic
discussed or the idea or message expressed.” Id. at
2227. “Some facial distinctions based on a message are
obvious, defining regulated speech by particular subject matter, and others are more subtle, defining regulated speech by its function or purpose.” Id. Moreover,
“laws that cannot be justified without reference to the
content of the regulated speech, or that were adopted
by the government because of disagreement with the
message the speech conveys” are similarly considered
content-based. Id.
Here, the parties do not dispute that the regulations are content-based. The Court discerns no basis
for concluding otherwise. The prohibition extends exclusively to advertising. To ascertain whether particular material is subject to the ban, a city official would
need to review the content in order to assess if it constitutes “advertising.” See id.; see also Centro de la Comunidad Hispana de Locust Valley v. Town of Oyster
Bay, 868 F.3d 104, 112 (2d Cir. 2017) (city ordinance
was content based where it proscribed conduct done
“for the purpose of soliciting employment”).
Although content-based laws generally receive
strict scrutiny, in Central Hudson Gas & Electric Corp.
v. Public Service Commission of New York, the Supreme Court carved out an exception for laws that
target commercial speech—and therefore are necessarily content-based. See 447 U.S. 557, 565-66 (1980).

48a
Commercial speech is defined as any “expression related solely to the commercial interest of the speaker
and its audience.” Id. at 561. Because “speech proposing a commercial transaction . . . occurs in an area traditionally subject to government regulation,” id.,
where a content-based regulation is aimed solely at
commercial speech courts have traditionally applied
the relaxed form of judicial scrutiny described in Central Hudson, see Matal v. Tam, 137 S. Ct. 1744, 176364 (2017). Although at first glance, the regulations
here—which apply only to “advertising”—seem concerned exclusively with commercial speech, Vugo nonetheless makes two arguments as to why strict scrutiny
should still apply.
First, Vugo contends that, without explicitly repudiating Central Hudson, the Supreme Court’s “recent
decisions demonstrate that to sustain a ban on speech
enacted simply because that speech is commercial in
nature, government bodies face the nearly insurmountable burden of strict scrutiny.” Pl. MSJ, at 10,
ECF No. 40. This position is not completely devoid of
merit. In Greater New Orleans Broadcasting Ass’n,
Inc. v. United States, for instance, the Supreme Court
recognized both that it has applied Central Hudson
“more strictly” in the years since it first formulated
the test and that various commentators have urged
for the test’s repudiation in favor of a more “straightforward and stringent” standard, an invitation the
Court declined to accept at that time. 527 U.S. 173,
182-84 (1999). More recently, Justice Thomas, writing
for the majority in Reed, defined as “presumptively

49a
unconstitutional” regulations that “appl[y] to particular speech because of the topic discussed or the idea or
message expressed.” 135 S. Ct. at 2222. Particularly in
light of Justice Thomas’ skepticism towards the Central Hudson standard, see, e.g., Lorillard Tobacco Co. v.
Reilly, 533 U.S. 525, 572 (2001) (Thomas, J., concurring
in part and concurring in the judgment), some have
speculated that, following Reed, regulations targeting
commercial speech may now be subject to strict scrutiny, see, e.g., Note, Free Speech Doctrine After Reed v.
Town of Gilbert, 129 Harv. L. Rev. 1981, 1990 (May
2016). Even Vugo acknowledges, however, that Central
Hudson has not been explicitly overturned. Pl. MSJ, at
10. Consistent with other district courts in this Circuit,
the Court thus declines to stray from such wellestablished doctrine absent an express holding from either the Supreme Court or the Court of Appeals for the
Second Circuit. See, e.g., Boelter v. Hearst Commc’ns,
Inc., 192 F. Supp. 3d 427, 447 n.10 (S.D.N.Y. 2016).
Second, as Vugo correctly notes, there is undisputed evidence in the record that the TLC regulations
have also prohibited the display of speech that is not
commercial in nature, such as public service announcements, Pl. 56.1 ¶ 26, and political advertisements, Tr.
8:8-18, July 27, 2017, ECF No. 60. Both parties agree,
however, that at its core this case is about commercial
speech. See Tr. 25:21-26:1, July 27, 2017. Indeed, the
City invites the Court to construe the regulations so as
to apply only to commercial speech, Def. Supp. Br., at
8, ECF No. 59, thereby ensuring that the TLC’s regulations are not subject to strict scrutiny. And Vugo, in

50a
spite of advancing the arguments above, does not
object to the Court applying Central Hudson. See Tr.
27:5-9, July 27, 2017. Ultimately, the Court need not
adjudicate the precise level of scrutiny required because the regulations at issue cannot pass constitutional muster under either standard. Accordingly,
following the example set by the Supreme Court and
the Second Circuit, this Court will assess the merits of
Vugo’s challenge under the less demanding Central
Hudson standard. See, e.g., Sorrell v. IMS Health Inc.,
564 U.S. 552, 571 (2011) (declining to assess whether
the regulation at issue reached non-commercial speech
and applying Central Hudson because “[a]s in previous
cases[ ] . . . the outcome is the same whether a special
commercial speech inquiry or a stricter form of judicial
scrutiny is applied”); Centro, 868 F.3d at 112 n.2.
I.

The Central Hudson Standard

Under Central Hudson, the constitutionality of a
statute regulating commercial speech is determined by
a four-part test. The first two prongs are threshold inquiries: (1) “the speech in question must not be misleading and must concern lawful activity” and (2) “the
asserted government interest [justifying the restriction]
must be substantial.” United States v. Caronia, 703
F.3d 149, 164 (2d Cir. 2012). “If both inquiries yield positive answers,” Central Hudson, 447 U.S. at 566, then
the Court proceeds to the final two prongs: (3) “the regulation must directly advance the governmental interest asserted . . . to a material degree”; and (4) “the
regulation must be narrowly drawn, and may not be

51a
more extensive than necessary to serve the interest,”
Caronia, 703 F.3d at 164 (citation and internal quotation marks omitted).
A. The Threshold Inquiries
Here, the first two prongs of Central Hudson are
satisfied. The parties do not dispute that the regulations target speech that is not unlawful or misleading.
The Court discerns no basis for concluding otherwise.
See Centro, 868 F.3d at 113-14 (“In sum, the First
Amendment offers no protection to speech that proposes a commercial transaction if consummation of
that transaction would necessarily constitute an illegal
act.” (emphasis in original)).
The City has also articulated a substantial interest. In assessing the government interest, the Court
“must identify with care the interests the State itself
asserts. Unlike rational-basis review, the Central Hudson standard does not permit us to supplant the precise interests put forward by the State with other
suppositions.” Edenfield v. Fane, 507 U.S. 761, 768
(1993). The City has consistently justified the advertisement ban on the basis that advertisements annoy
passengers. It is well-settled that government entities
have a “substantial” interest in protecting the aesthetic appearance of cities, Members of the City Council
of the City of Los Angeles v. Taxpayers for Vincent, 466
U.S. 789, 807 (1984), and in protecting the public from
“undue annoyance,” Vill. of Schaumburg v. Citizens for
a Better Env’t, 444 U.S. 620, 636 (1980). Moreover, the

52a
Supreme Court has upheld the refusal by a municipality to display political ads on public buses in order [sic]
“minimize . . . the risk of imposing upon a captive audience.” Lehman v. Shaker Heights, 418 U.S. 298, 304
(1974). Because the Court answers both of the first
prongs in the affirmative, the analysis now turns to the
final two elements.
B. The Fit Between the Ends and the Means
“The last two steps in the [Central Hudson] analysis have been considered, somewhat in tandem, to determine if there is a sufficient fit between the
regulator’s ends and the means chosen to accomplish
those ends.” Bad Frog Brewery, Inc. v. N.Y. State Liquor
Auth., 134 F.3d 87, 98 (2d Cir. 1998) (citation and internal quotation marks omitted). “The burden to establish
that ‘reasonable fit’ is on the governmental agency defending its regulation, though the fit need not satisfy a
least-restrictive-means standard.” Id. (citation omitted).
It is here that the City is unable to satisfy its burden under Central Hudson and Vugo is therefore entitled to judgment as a matter of law. The fit between the
ends sought by the City and the chosen means is,
simply put, an unreasonable one. In short, the City’s
regulations are both under-inclusive in that large
swaths of the vehicles regulated by the TLC, i.e., taxis
and SHLs, are permitted to display advertisements
and unnecessarily restrictive because passengers in
non-exempt vehicles could be protected from the

53a
dangers identified by the City by means less severe
than a complete prohibition on advertising. This combination persuades the Court that the City has failed
to craft a policy with a “sufficient fit” to the ends it
seeks.
1. Material Advancement of the Government Interest
To satisfy the third prong of Central Hudson, the
City must demonstrate that “the harms it recites are
real and that its restriction will in fact alleviate them
to a material degree.” Edenfield, 507 U.S. at 771. In
substantiating the harm, the City is not required to
produce “empirical data . . . accompanied by a surfeit
of background information.” Lorillard, 533 U.S. at 555
(citation and internal quotation marks omitted). Instead,
the Supreme Court has “permitted litigants to justify
speech restrictions by reference to studies and anecdotes pertaining to different locales altogether[ ]. . . .”
Id. (citation and internal quotation marks omitted).
A restriction will fail this third prong of Central Hudson if it “provides only ineffective or remote support
for the government’s purpose.” Bad Frog Brewery, 134
F.3d at 98 (citation and internal quotation marks
omitted). Moreover, “[t]he Supreme Court has made it
clear in the commercial speech context that under[-]
inclusiveness of regulation will not necessarily defeat
a claim that a state interest has been materially advanced.” Id. In assessing whether under-inclusiveness
precludes a policy from materially advancing the government interest, courts consider both the degree to

54a
which the regulation is under-inclusive, see City of Cincinnati v. Discovery Network, Inc., 507 U.S. 410, 417-18
(1993), and the government’s rationale for crafting such
a policy, see id. at 424.
Contrary to Vugo’s argument, the City has substantiated the harm it seeks to remedy, in particular
by providing survey data. In response to a 2011 survey
of taxi passengers nearly one-third of respondents indicated that “Taxi TV is annoying.” Wanttaja Decl. Ex.
C, at NYC0482. Passengers have further complained
about the following aspects of TPEP: the blinking
screen causes motion sickness; the buttons to lower the
volume and turn off the PIM often do not work; and the
content is repetitive and boring. See generally Wanttaja
Decl. Exs. D, K. Passengers have also singled out advertisements as especially irritating. See Wanttaja
Decl. Ex. K, at NYC0438.
Vugo further contends that the under-inclusive
nature of the regulations precludes the City from satisfying its burden under the third prong of Central
Hudson. Specifically, Vugo argues that, as was the case
in City of Cincinnati v. Discovery Network, Inc., where
the Supreme Court struck down a policy requiring the
removal of news racks distributing commercial handbills—only 62 of the 1,500-2,000 news racks in the city,
507 U.S. at 417-18—the TLC’s regulations are “selective” due to the exemption of taxis and SHLs, Pl. MSJ,
at 15. The City counters that its policy contains a far
lesser proportion of exemptions than the regulation
challenged in City of Cincinnati. In particular, the City
notes that if the TLC’s regulations are invalidated,

55a
interior advertising would be permissible in 73,768 additional vehicles, a potential 450% increase. Def. 56.1
¶ 24. The City, however, exaggerates the degree to
which the ban materially advances the stated interest,
for two reasons. First, although taxis do comprise a minority of the vehicles regulated by the TLC, as of June
25, 2016 taxis accounted for 371,257 daily trips while
Uber and Lyft, respectively, provided 179,647 and
33,401 daily trips. See Bellefeuille Decl. ¶ 4, ECF No.
52. Second, there is no guarantee that, absent the ban,
all, or even a majority of, FHV owners would even elect
to display advertisements.
The more compelling factor, in any event, is the
City’s failure to provide a sufficient rationale for exempting taxis and SHLs. In City of Cincinnati, for instance, the fact that such a large number of news racks
were exempt from the policy was not dispositive. Instead, the Supreme Court’s analysis turned on the municipality’s justification for the exemption: prohibiting
news racks distributing commercial handbills while
allowing those that distributed non-commercial publications “b[ore] no relationship whatsoever to the particular interests that the city ha[d] asserted”—
aesthetics and safety. 507 U.S. at 424-26 (emphasis in
original).
Here, the City attempts to justify the exemptions
to the ban on the basis that taxis and SHLs are, respectively, required to have TPEPs and LPEPs. Def.’s 56.1
¶¶ 8-9, 15; Wanttaja Decl. ¶¶ 13, 44, 47. The TPEP and
LPEP requirements “add[ ] a significant new cost to vehicle owners without any expectation of increased

56a
business.” Wanttaja Decl. ¶ 47. These costs persuaded
the TLC to allow an exception to its general rule
against interior advertising. Wanttaja Decl. ¶ 47; see
also Pl. 56.1 ¶¶ 10, 12-13. The problem, however, is
that this rationale for exempting taxis and SHLS from
the advertising ban “bears no relationship whatsoever”
to the interest articulated by the City of protecting citizens from annoyances. See City of Cincinnati, 507 U.S.
at 424.
Even the primary authorities upon which the City
relies—Members of the City Council of the City of Los
Angeles v. Taxpayers for Vincent and Metromedia, Inc.
v. City of San Diego—belie its argument. In both cases,
signs were prohibited in certain contexts and not in
others, but in each instance the rationale underlying
the under-inclusive policy bore a direct relationship to
the municipality’s interest in regulating the speech at
issue. In Taxpayers for Vincent, for example, the regulatory scheme at issue banned the posting of signs for
aesthetics purposes, but exempted private landowners,
in part due to owners’ interest in their land, which
would most likely keep their posting of signs “within
reasonable bounds.” 466 U.S. at 811.7 Similarly, in
Metromedia, the Court concluded that, because the
regulation pertained to commercial speech, it was reasonable to exempt onsite advertising from the ban at
7

The regulation at issue in Taxpayers for Vincent was content neutral and the Supreme Court thus did not apply the Central Hudson test. See 466 U.S. at 789-90. The Supreme Court’s
analysis regarding under-inclusiveness, however, is still relevant,
particularly given the degree to which the City relies upon it.

57a
issue, in part because “offsite advertising, with its periodically changing content, [may] present[ ] a more
acute problem [aesthetically] than does onsite advertising.” 453 U.S. 490, 511 (1981).
The Supreme Court has also looked to the relationship between the articulated state interest and the
rationale for crafting an under-inclusive policy in assessing other challenges to restrictions on commercial
speech. In Rubin v. Coors Brewing Co., for instance, the
Court invalidated a regulation prohibiting the specification of alcoholic content on beer labels—intended to
prevent advertising “strength wars”—in part because
(1) the practical effect of the regulatory regime was to
allow such statements in beer advertisements and (2)
labels on bottles of other types of alcoholic beverages
were not subject to the ban. 514 U.S. 476, 488 (1999
[sic]). The Court of Appeals for the Second Circuit has
employed similar logic, See, e.g., Clear Channel Outdoor, Inc. v. City of New York, 594 F.3d 94, 108 (2d Cir.
2010) (upholding a regulation, partially on the basis
that the court “defer[red] to the City’s judgment that
unregulated signage and billboards are a greater eyesore than coordinated street furniture bearing advertisements,” which were exempt).
Here, however, there is no basis for concluding
that advertisements in the exempted vehicles are
somehow less annoying or that those passengers are
any less vulnerable. Rather, the rationale for exempting taxis and SHLs, i.e., the costs associated with TPEP
and LPEP, exists only because the City has mandated that those vehicles install such systems and

58a
subsequently allowed drivers to recoup the resulting
costs specifically by displaying advertisements. Were
the City permitted to justify the under-inclusiveness of
the ban on this basis, the reasonable fit prong of Central Hudson would lose much of its force. Municipalities would be able to selectively restrict commercial
speech on nearly any basis. It is true that the TPEP
and LPEP requirements allegedly derive from the primary functional difference between the exempted vehicles and FHVs: taxis and SHLs accept street hails
while FHVs do not. This difference, however, similarly
bears no relationship to the protection of citizens from
advertisements. The regulations thus fail to directly
advance the City’s stated interest to a material degree.
See Caronia, 703 F.3d at 164.
2. Narrowly Drawn
The Central Hudson test does not require the municipality to employ the “least restrictive means.” Bd.
of Trs. of State Univ. of N.Y. v. Fox, 492 U.S. 469, 477
(1989). Rather, the means must only be “narrowly
drawn and no more extensive than reasonably necessary to further substantial interests.” Id. (citation and
internal quotation marks omitted). “[I]f there are numerous and obvious less-burdensome alternatives to
the restriction on commercial speech” that weighs
against the conclusion that the fit between the ends
and means is reasonable. City of Cincinnati, 507 U.S.
at 417 n.13. As the Supreme Court has noted, “[n]one
of our cases invalidating the regulation of commercial
speech involved a provision that went only marginally

59a
beyond what would adequately have served the governmental interest. To the contrary, almost all of the
restrictions disallowed under Central Hudson’s fourth
prong have been substantially excessive, disregarding
far less restrictive and more precise means.” Fox, 492
U.S. at 479; see also Shapero v. Ky. Bar Ass’n, 486 U.S.
466, 476 (1988) (complete prohibition on allowing attorneys to solicit legal business for pecuniary gain by
sending truthful, non-deceptive letters to potential clients violated the First Amendment because “[t]he state
can regulate such abuses and minimize mistakes
through far less restrictive and more precise means,
the most obvious of which is to require the lawyer to
file any solicitation letter with a state agency”); Zauderer v. Office of Disciplinary Counsel of Supreme
Court of Ohio, 471 U.S. 626, 648-49 (1985) (complete
ban on illustrations in attorney advertisements violated the First Amendment, in part because the state
failed to demonstrate that “potential abuses associated
with the use of illustrations in attorneys’ advertising
cannot be combated by any means short of a blanket
ban”); Centro, 868 F.3d at 116-18 (statute not narrowly
drawn where, allegedly in furtherance of ensuring pedestrian and traffic safety, regulation prohibited all
roadside solicitation of employment, in part because
there were a number of ways to promote the asserted
interest “while limiting the impact on constitutionally
protected speech”); cf. Long Island Bd. of Realtors, Inc.
v. Inc. Vill. of Massapequa Park, 277 F.3d 622, 628 (2d
Cir. 2002) (“[T]he restrictions on the number, size, and
location of signs, the duration for which signs may remain on residential property, and the presence of

60a
off-site commercial advertising [were constitutional
because they] further[ed] the Village’s interest in aesthetics and safety while permitting the Board to display signs to inform people of the availability of a
home.”).
Whether the City has satisfied its burden with respect to the fourth prong is a closer question. The Court
is sensitive to the fact that the City is not obligated to
employ the least restrictive means. Indeed, it is acceptable in certain situations for a municipality to
forbid commercial speech in its entirety in certain locations. See Clear Channel, 594 F.3d at 108. But when
the third and fourth elements of Central Hudson are
considered in tandem, this final portion of the test does
not weigh sufficiently in favor of the City so as to render the fit between the means and ends reasonable.
The City may have had a stronger argument with
respect to overall fit if, rather than prohibiting all advertisements, the regulations limited their placement,
size, or some other manner in which they are presented. See, e.g., Long Island Bd. of Realtors, 277 F.3d
at 628. Any devices displaying advertisements could,
for instance, be required to be outfitted with a properly
functioning on-off switch or a mute button. This would
effectively leave the decision to be faced with such advertisements to the passenger, preventing any citizen
from becoming a captive audience subjected to unwanted noise and imagery. The City rightfully points
out that such limitations could result in a substantial
burden on city officials to monitor compliance. These
examples, however, are by no means an exhaustive set

61a
of alternatives, but are meant simply to illustrate the
number of options, short of a complete ban on advertising, by which the city could pursue its articulated interest. Accordingly, the unnecessarily restrictive
nature of the regulations buttresses the Court’s conclusion that the means employed by the regulations do
not justify the ends sought by the City under Central
Hudson.
Remedy8

II.

Vugo has made the requisite showing for the Court
to grant an injunction prohibiting the City from enforcing 35 R.C.N.Y. §§ 59A-29(E) and 59B-29(E). See Ognibene v. Parkes, 671 F.3d 174, 182 (2d Cir. 2011) (“The
party requesting permanent injunctive relief must
demonstrate (1) irreparable harm (here, a constitutional violation) and (2) actual success on the merits.”);
see also Int’l Dairy Foods Ass’n v. Amestoy, 92 F.3d 67,
8

Vugo asserts both facial and as-applied challenges. The distinction between the two “goes to the breadth of the remedy employed by the Court, not what must be pleaded in a complaint.”
Citizens United v. FEC, 558 U.S. 310, 331 (2010). “Although facial
challenges are generally disfavored, they are more readily accepted in the First Amendment context.” Beal v. Stern, 184 F.3d
117, 125 (2d Cir. 1999). In this case, because Vugo’s “constitutional argument is a general one” that “does not rest on factual
assumptions that can be evaluated only in the context of an asapplied challenge,” see United States v. Stevens, 559 U.S. 460, 473
n.3 (2010) (citations and internal quotation marks omitted), “it
makes no difference of any substance whether this case is resolved by invalidating the statute on its face or as applied to
[Vugo],” Citizens United, 558 U.S. at 376 (Roberts, C.J., concurring).

62a
71 (2d Cir. 1996) (“It is established that ‘the loss of
First Amendment freedoms, for even minimal periods
of time, unquestionably constitutes irreparable injury.’ ”
(quoting Elrod v. Burns, 427 U.S. 347, 373 (1976))).
CONCLUSION
For the foregoing reasons, Vugo’s motion for summary judgment is granted and the City’s motion for
summary judgment is denied. The Clerk of Court is respectfully directed to terminate the motions pending
at docket entries thirty-eight and forty-five.
SO ORDERED.
Dated: February 22, 2018
New York, New York
/s/ Ronnie Abrams
Ronnie Abrams
United States District Judge

63a
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
----------------------------------------------------------------------------------------------------------------------------------------------------

At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 23rd day of September,
two thousand nineteen.
Vugo, Inc.,
Plaintiff - Appellee,
v.

ORDER
Docket No: 18-807

City of New York,
Defendant - Appellant.
Appellee, Vugo, Inc., filed a petition for panel rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered
the request for panel rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

64a
NYC Rules
§ Section 59A-29: Vehicles – Markings & Advertising.
(a)

Valid License Decals.

(1) Three Valid Commission License Decals must
be plainly visible and affixed to the Vehicle in the following locations:
(i) One Decal must be on the lower front right
side of the windshield
(ii) One Decal must be on the lower rear corner
of each of the two rear quarter windows; if there are no
rear quarter windows, the Decals must be on the lower
rear window just above the rear door.
(iii)
staff.

The Decals must be affixed by Commission

(2) New Decals must be placed on the Vehicle by
the Commission Safety and Emissions Division:
(i)

When the License is renewed;

(ii) If the Vehicle is replaced, changes affiliation,
or changes its license plates.
(3) Exception for Luxury Limousines. Any ForHire Vehicle that is a Luxury Limousine will only be
required to have a single Commission Decal affixed to
the lower right side of the front windshield.

65a
§59A-29(a)

Failure to have proper Appearance
Decal(s): $500 for the NOT Required
first offense in 12
months $1,000 for
the second and subsequent offenses within
a 12-month period
and suspension of
the For-Hire Vehicle
License until compliance.

(b) Valid Registration Sticker. A Valid registration sticker from an authorized state motor vehicle department must be affixed to the left front windshield
so as to be plainly visible.
§59A-29(b)

Fine: $100

Appearance
NOT Required

(c) Inspection Sticker. A Valid New York State
DMV inspection sticker that has no fewer than eight
months left before the sticker expires must be plainly
visible on the front left side of the front windshield.
§59A-29(c)

Vehicle Owner Fine:
Appearance
$100 and suspension Required
of the Vehicle Owner
License until any defect found is corrected
Penalty Points: 1.

66a
(d) Taxicab Yellow Prohibited. No For-Hire Vehicle can be, in whole or in part, any shade of Taxicab
yellow.
§59A-29(d)

(e)

Fine: $350 for the first Appearance
violation; $500 for the Required
second violation in 24
months; revocation for
the third violation in
36 months

Prohibited Advertising.

(1) An Owner must not display any advertising
on the exterior or the interior of a For-Hire Vehicle unless the advertising has been authorized by the Commission and a License has been issued to the Owner
following the provisions of the Administrative Code.
(2) The Commission will not approve any advertising for the exterior of a For-Hire Vehicle that consists, in whole or in part, of roof top advertising.
§59A-29(e)

Fine: $50

*

Appearance
NOT Required
*

*

67a
§ Section 59B-29: Vehicles – Marking & Advertising.
A Base Owner must not dispatch a Vehicle from its
Base unless the Vehicle complies with the following requirements.
(a)

Valid License Decals.

(1) Three Valid Commission License Decals must
be plainly visible and affixed to the Vehicle in the following locations:
(i) One Decal must be on the lower front right
side of the windshield.
(ii) One Decal must be on the lower rear corner
of each of the two rear quarter windows; if there are no
rear quarter windows, the Decals must be on the lower
rear window just above the rear door.
(iii)
staff.

The Decals must be affixed by Commission

(2) When the Vehicle License is renewed or when
the Vehicle is replaced, changes affiliation, or changes
its license plates, the Vehicle must be brought to the
Commission Safety and Emissions Division to have
new Decals placed on the Vehicle.
(3) Exception for Luxury Limousines. Any ForHire Vehicle that is a Luxury Limousine will only be
required to have a single Commission Decal affixed to
the lower right side of the front windshield.

68a
§59B-29(a)

Failure to have proper Appearance
Decals: $500 for the
NOT Required
first offense in 12
months; $1,000 for the
second and subsequent offenses within
a 12-month period.

(b) Valid Registration Sticker. A valid registration sticker from an authorized state motor Vehicle department must be affixed to the left front windshield
so as to be plainly visible.
§59B-29(b)

Fine: $100

Appearance
NOT Required

(c) Inspection Sticker. A Valid New York State
DMV inspection sticker that has at least eight months
left before the sticker expires must be clearly visible on
the left side of the front windshield.
§59B-29(c)

Base Owner Fine:
$350

Appearance
NOT Required

(d) Taxicab Yellow Prohibited. No part of a ForHire Vehicle can be painted any shade of Taxicab yellow.

69a
§59B-29(d)

(e)

Fine: $350 for the first Appearance
violation; $500 for the Required
second violation in 24
months; Revocation
for the third violation
in 36 months

Prohibited Advertising.

(1) A Vehicle must not display advertising on the
outside or the inside unless the Commission has authorized the advertising and has given the Vehicle
Owner a permit specifying that the advertising complies with the Administrative Code.
(2) The Commission will not approve any roof top
advertising for For-Hire Vehicles, except for Street Hail
Liveries.
(3) Street Hail Liveries: Optional Rooftop Advertising Fixture.
(i) A Street Hail Livery Licensee may equip a
Taxicab with an authorized Rooftop Advertising Fixture in accordance with Rule 82-63.
§59B-29(e)

Fine: $50

*

Appearance
NOT Required
*

*

